No. 19-616

IN THE

Supreme Court of the United States
>>>>

W.A.

AND M.S., INDIVIDUALLY
AND ON BEHALF OF W.E.,

Petitioners,
v.

HENDRICK HUDSON CENTRAL SCHOOL DISTRICT,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

DANIEL PETIGROW
Counsel of Record

DAVID H. STRONG
STEVEN L. BANKS
THOMAS, DROHAN, WAXMAN, PETIGROW
& MAYLE, LLP
Counsel for Respondent

December 16, 2019

2517 Route 52
Hopewell Junction, New York 12533
845-592-7000
dpetigrow@tdwpm.com

i
QUESTIONS PRESENTED

The Individuals with Disabilities Education
Act (IDEA) provides students with disabilities access
to special education services, which the statute
defines as consisting of “specially designed
instruction, at no cost to parents, to meet the unique
needs of a child with a disability,” along with related
services, which the statute defines as “supportive
services” “designed to enable a child with a disability
to receive a free appropriate public education.” 20
U.S.C. § 1401.
The questions presented are:
Whether the parents of a student with a
disability are entitled under the IDEA to recover the
cost of a private education that provides neither
instruction nor related services specially designed to
address the student’s disability.
The extent to which the federal courts are
required to defer to the educational expertise of state
education officials on the question of whether a
private placement unilaterally selected by parents is
appropriate to meet the disabled student’s unique
needs.

ii
PARTIES TO THE PROCEEDING
Petitioners, and plaintiffs below, are W.A. and
M.S., the parents of a student with a disability, known
as W.E.
Respondent, and defendant below, is the
Hendrick Hudson Central School District.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ............................. i
PARTIES TO THE PROCEEDING ................. ii
TABLE OF AUTHORITIES ............................ iv
INTRODUCTION ............................................. 1
STATEMENT OF THE CASE ......................... 3
A. Factual Background .............................. 3
B. Proceedings Below ................................. 6
1. Administrative Proceedings ............. 6
2. Judicial Proceedings ......................... 8
REASONS FOR DENYING THE
PETITION ................................................. 10
I. There Is No Actual Circuit Conflict For
The Court To Resolve................................ 11
A. The Cited Circuit Opinions Do Not
Demonstrate A Meaningful
Disagreement In Their Approach
To Evaluating The Appropriateness
Of A Private Placement ....................... 11
B. The Need For Courts To Defer To
State Education Officials On Issues
Of Educational Policy is Well
Established And Not The Subject Of
A Split Among The Circuits ................ 16

iv
II. The Second Circuit’s Decision Below Is
Correct ....................................................... 21
CONCLUSION ............................................... 25

v
TABLE OF AUTHORITIES
Cases
Berger v. Medina City Sch. Dist.,
348 F.3d 513 (6th Cir. 2003) ..................... 15
Blount Cnty. Bd. of Educ. v. Bowens,
929 F. Supp. 2d 1199 (N.D. Ala. 2013),
aff’d, 762 F.3d 1242 (11th Cir. 2014) ....... 20
Bd. of Educ. v. Rowley,
458 U.S. 176 (1982) ........................... passim
C.B. v. Garden Grove Unified Sch. Dist.,
635 F.3d 1155 (9th Cir. 2011),
cert. denied, 565 U.S. 977 (2011) .............. 19
Endrew F. v. Douglas Cnty. Sch. Dist. RE-1,
137 S.Ct. 988 (2017) ............................ 17, 18
Florence Cnty. Sch. Dist. Four v. Carter,
510 U.S. 7 (1993) ....................................... 22
Forest Grove Sch. Dist. v. T.A.,
557 U.S. 230 (2009) ............................. 23, 24
Frank G. v. Bd. of Educ.,
459 F.3d 356 (2d Cir. 2006),
cert. denied, 552 U.S. 985 (2007) .. 12, 14, 15
Kerkam v. McKenzie,
862 F.2d 884 (D.C. Cir. 1988) ................... 19
L.H. v. Hamilton County Dep’t of Educ.,
900 F.3d 779 (6th Cir. 2018) ..................... 14

vi
Leggett v. D.C.,
793 F.3d 59 (D.C. Cir. 2015) ............... 12, 13
Loren F. v. Atlanta Ind. Sch. Sys.,
349 F.3d 1309 (11th Cir. 2003) ................. 20
Murray v. Montrose Cnty. Sch. Dist. RE-1J,
51 F.3d 921 (10th Cir. 1995),
cert. denied, 516 U.S. 909 (1995) .............. 20
S.L. v. Upland Unified Sch. Dist.,
747 F.3d 1155 (9th Cir. 2014) ................... 15
Salve Regina College v. Russell,
499 U.S. 225 (1991) ................................... 24
Sch. Comm. of Burlington
v. Dept. of Educ. of Mass.,
471 U.S. 359 (1985) ................................... 23
Spring Branch Ind. Sch. Dist.
v. O.W.,
938 F.3d 695 (5th Cir. 2019) ..................... 14
Sumter County Sch. Dist. 17
v. Heffernan,
642 F.3d 478 (4th Cir. 2011) ............... 13, 14
Z.B. v. D.C.,
888 F.3d 515 (D.C. Cir. 2018) ................... 19
Statutes
20 U.S.C. § 1400(d)(1)(A) ............................... 21
20 U.S.C. § 1401(14) ......................................... 4

vii
20 U.S.C. § 1412(a)(10)(A)(i) .......................... 22
20 U.S.C. § 1412(a)(10)(C).............................. 23
20 U.S.C. § 1414(d) ......................................... 12
20 U.S.C. § 1415(b)(6) ...................................... 6
20 U.S.C. § 1415(f)(1)(A) .................................. 6
20 U.S.C. § 1415(g) ........................................... 6

1
INTRODUCTION
In rejecting petitioners’ bid to have the public
schools pay for their child’s education at a private
college preparatory school, the court below reaffirmed
the established principle that “primary responsibility
for formulating the education to be accorded a
handicapped child, and for choosing the educational
method most suitable to the child’s need, was left by
the [IDEA] to state and local educational agencies[.]”
Bd. of Educ. v. Rowley, 458 U.S. 176, 207 (1982). In
this instance, the court afforded deference to the
educational expertise of the State Review Officer
(SRO) who reviewed the administrative record and
found that the college preparatory school did not
provide the services necessary to address the
student’s particular deficits.
Having been unable to demonstrate at the
administrative level that their chosen private
placement addressed the emotional issues and poor
organizational skills that constitute the student’s
particular disability, petitioners now ask this Court to
alter the IDEA’s promise to provide students with
disabilities with appropriate and specially designed
special education and related services.
Rather,
petitioners would have the IDEA be a vehicle for
parents to bill the public schools for the cost of a
private residential education whenever the student
may have derived a benefit from the attributes
commonly associated with a private residential

2
school, such as a bucolic setting, small class sizes, and
attentive faculty.
To entice the Court to take up this issue,
petitioners offer an illusory circuit split, principally
arguing that the Second Circuit’s treatment of
petitioners’ claim for reimbursement differed from the
treatment of a handful of reimbursement claims in
other circuits. However, none of the opinions cited by
petitioners actually articulated that the particular
circuit court’s standard for assessing the
appropriateness of a parent’s unilateral private
placement diverged from that in other circuits. Given
the highly fact determinative nature of claims
asserted under the IDEA, the purported circuit split
suggested by petitioners is, in actuality, a product of
factual distinctions and not dissimilar views of the
law.
The petition does not offer an important or
recurring question of law that requires the Court’s
resolution. Rather, the petition seeks to have the
educational rights of one particular student reviewed
by this Court. That student’s disability is in no way
typical of the disabilities of students covered by the
IDEA, and the private college preparatory school that
he attended has not been shown to be typical of the
private placements that serve students with
disabilities.
The Court should deny the petition.

3
STATEMENT OF THE CASE
A.

Factual Background

Petitioner W.E. attended the public school
system from kindergarten through eighth grade. In
his sixth grade year, W.E. began to experience
recurring abdominal migraines along with, in his
seventh grade year, migraine headaches. These
conditions caused W.E. to suffer pain and discomfort
for extended periods of time and, as a result, W.E.
missed 26 school days during seventh grade. Pet.
App. 9a. W.E.’s psychiatrist attributed the migraines
to W.E.’s difficulty coping with stress and anxiety.
W.E.’s struggles attending school prompted
petitioners to ask for review by the respondent’s
“Section 504 Committee,” responsible for evaluating
students
for
accommodations
under
the
Rehabilitation Act of 1973. In June 2010, the Section
504 Committee found W.E. to be eligible for
accommodations, including extra time to complete
assignments, nursing services, access to class notes,
and home tutoring. Pet. App. 9a-10a.
During his eighth grade year (2010-2011 school
year), W.E. continued to suffer from abdominal and
conventional migraines, resulting in him missing
more than 100 school days. Pet. App. 10a.
In March 2011, petitioners executed an
agreement with Northwood School (Northwood) to
have W.E. enroll there at the beginning of the 20112012 school year. At the time petitioners committed
to enrolling W.E. at Northwood, they had not referred
W.E. to the respondent’s Committee on Special

4
Education (CSE), which is primarily responsible at
the school district level for evaluating students with
disabilities and developing a program of special
education services. Pet. App. 11a.
Ultimately, petitioners referred W.E. to the
CSE in the spring of 2011, and, at a meeting on
August 26, 2011, the committee classified W.E. as a
student with a disability under the IDEA, and
discussed a program that would have provided W.E.
with counseling services, nursing services, extra time
for completing assignments, and a public school
placement with class sizes limited to eight students.
Petitioners quickly rejected the individualized
education program (IEP) discussed by the CSE, see 20
U.S.C. § 1401(14), and enrolled W.E. at Northwood in
accordance with the previously executed enrollment
agreement. Pet. App. 278a.
Northwood is a private, college preparatory
boarding school in the Adirondacks region of New
York. Its program is not therapeutic in nature and
does not principally focus on the education of students
with disabilities. Pet. App. 11a, 18a, 248a. For the
2011-2012 school year, the ninth grade class was
comprised of seventeen students, including W.E. Pet.
App. 76a.
Northwood’s accommodation plan for W.E.
included extended time for in-class assignments,
preferential seating, use of graphic organizers and an
iPad, supervised study hall, counseling sessions, and
access to a school nurse. Pet. App. 251a. The
counseling Northwood provided was not therapeutic
in nature, but consisted of informal conversations
with a faculty member. Pet. App. 254a. The faculty

5
member who provided W.E. with counseling had no
specialized knowledge about migraines or their
triggers. Pet. App. 255a.
During his ninth grade year at Northwood,
W.E. earned passing grades and missed significantly
fewer school days because of migraines.
On June 14, 2012, the CSE reconvened to
review W.E.’s needs and to develop a program of
services and accommodations for the 2012-2013 school
year. Based on the information before it, including
reports from Northwood, W.E.’s private psychiatrist,
and a school psychologist employed by the respondent,
the CSE recommended that W.E. attend an out-ofdistrict, publicly-funded day program that would
provide him with small classes, counseling, nursing
services, access to class notes, and testing
accommodations. W.E.’s IEP established a series of
goals intended to promote improvements in his
academic organization and study skills, and his
ability to cope with stress and anxiety. Pet. App. 86a,
214a.
Subsequently, W.E. was accepted into a
therapeutic day program operated by the Southern
Westchester Board of Cooperative Education Services
that could provide W.E. with the services and
accommodations recommended by the CSE. Pet. App.
215a. However, before the start of the school year,
petitioners rejected the placement and enrolled W.E.
at Northwood for his tenth grade year. Pet. App.
217a-218a.
For W.E.’s tenth grade year, Northwood offered
an accommodation plan that again included extended

6
time on assignments, preferential seating, use of
graphic organizers and an iPad, supervised study
hall, counseling, and access to a school nurse. Pet.
App. 89a. The counseling mostly consisted of periodic
and informal discussions with a faculty member in
W.E.’s room. Pet. App. 91a.
Academically, W.E.’s performance in tenth
grade was uneven, with report cards indicating “a lack
of engagement at times and . . . late and missing
assignments, poor quiz grades in English, and
occasional inappropriate behavior in class.” Pet. App.
93a.
B.

Proceedings Below
1. Administrative Proceedings

In November 2011, petitioners filed an
administrative due process complaint pursuant to 20
U.S.C. § 1415(b)(6) challenging the IEP that had been
prepared by the CSE for W.E.’s ninth grade year, and
requesting that the respondent bear the costs for
W.E.’s attendance at Northwood for the 2011-2012
school year. Pet. App. 368a. After an evidentiary due
process hearing in accordance with 20 U.S.C. §
1415(f)(1)(A), the impartial hearing officer (IHO)
denied petitioners’ request for tuition reimbursement
on the ground that Northwood “does not provide the
student with any instruction or services specific to
this student or his special education needs.” Pet. App.
457a.
Petitioners appealed the IHO’s finding to New
York’s state education agency for review by an SRO in
accordance with 20 U.S.C. § 1415(g). On January 31,

7
2014, the SRO dismissed petitioners’ administrative
appeal having found that:
[T]he hearing record lacks evidence
demonstrating
that
[Northwood]
provided instruction that was designed
to address the student’s tendencies to
develop physical symptoms and exhibit
school avoidance when under stress, or
his need to develop coping skills to
manage stress related to academics and
social interactions, and to improve his
organizational/study skills related to
academics, and, that the instruction that
the student received during the 2011-12
school year was, in fact, available to all
students enrolled at [Northwood.]
Pet. App. 340a. While petitioners generally assert
that the SRO found that the “student’s
social/emotional functioning improved” at Northwood,
they conveniently omit the remainder of the SRO’s
findings, specifically, that the private school failed to
address the student’s unique needs, and any
improvement on the part of the student was
“apparently due in large part to the fact he was no
longer required to engage in activities at the public
school that he perceived as stressful.” Pet. App. 339a340a.
On April 10, 2013, petitioners filed a separate
administrative due process complaint regarding their
claim for reimbursement for W.E.’s tenth grade year
at Northwood. Pet. App. 344a. The complaint was
assigned to a different IHO who, in a decision dated

8
December 17, 2013, found in favor of petitioners. Pet.
App. 367a.
Upon respondent’s administrative appeal, the
SRO reversed the decision of the IHO and denied the
request for tuition reimbursement on the same
grounds as before:
[P]lacing the student in the [non-public
school] setting—which the hearing
record did not show provided the student
with specially designed instruction to
address organizational needs, the need
to develop insight, and his underlying
vulnerability toward and lack of coping
skills related to anxiety, stress, and
somatization—is not sufficient in this
case to meet the parents’ burden to
establish that [non-public school’s]
program provided the student with
educational
instruction
specially
designed to meet his unique needs.
Rather, it appears that the student’s
placement at the [non-public school]
provided him “the kind of educational
and environmental advantages and
amenities that might be preferred by
parents of any child, disabled or not.”
Pet. App. 266a (citations omitted).
2. Judicial Proceedings
The separate SRO decisions concerning
petitioners’ requests for tuition reimbursement for the
2011-2012 and 2012-2013 school years were

9
consolidated for judicial review after petitioners
commenced separate actions challenging each SRO
decision in the district court for the Southern District
of New York. Pet. App. 50a, 96a.
The district court deferred to the SRO’s
analysis that Northwood had not been shown to be an
appropriate placement for the ninth grade year, but
reversed the SRO with respect to the tenth grade year,
finding that “the SRO’s decision with regard to the
2012-2013 school year failed to give adequate weight
to many of Northwood’s most beneficial features and
erroneously discounted the value of some of those
features merely because they were generally available
to all students.” Pet. App. 145a. The court ultimately
found petitioners entitled to tuition reimbursement
for W.E.’s tenth grade year at Northwood based on
W.E.’s improved attendance, as well as specific
attributes of the school, including use of an iPad, a
second study hall, the availability of nursing services,
and small class sizes. Pet. App. 151a-162a.
The Second Circuit subsequently affirmed the
district court on the question of reimbursement for
W.E.’s ninth grade year and reversed the district court
on the question of reimbursement for W.E.’s tenth
grade year, emphasizing the deference owed by the
courts to the findings of state education authorities,
and in particular the SRO, on issues that demand
educational expertise. Pet. App. 41a-42a. “[T]he
question of whether a private school placement
provided special education services is precisely a
question on which we defer to educational experts[.]”
Pet. App. 41a (citation omitted).

10
Because we are persuaded that the
district court improperly substituted its
judgment on matters of educational
policy for that of the SRO, and in light of
the district court’s own acknowledgment
that “[t]here is no question the SRO
considered all of the evidence on the
record,” W.A., 219 F. Supp. 3d at 476, we
hold that the district court improperly
failed to accord deference to the SRO’s
ruling that Northwood School was not an
appropriate placement for W.E.’s tenthgrade year.
Pet. App. 42a.
REASONS FOR DENYING THE PETITION
This case presents the Court with a
particularly minor issue in the realm of special
education, and a dispute that turns on a very narrow
factual background. Unlike many, if not most,
students with disabilities who receive services under
the IDEA, W.E.’s disability was such that he was able
to attend and receive passing marks in a general
education program at a private school. The question
of petitioners’ entitlement to reimbursement for the
costs associated with W.E.’s education at the private
college preparatory school from which he graduated
will have little meaningful effect on other IDEA cases
involving students whose disabilities require more
significant intervention.
Further, the circuit court split that the petition
promises is, upon examination of the actual opinions,
a construct, based upon either the courts’ differing use

11
of language or unique fact patterns. The circuit courts
have not substantively diverged in their systemic
approach to IDEA reimbursement cases, and thus
there is no significant dispute that merits the Court’s
attention. Granting certiorari in this instance will
only result in the Court weighing in on a unique
dispute between petitioners and respondent, and not
deciding a meaningful dispute among the circuits.
I.

There Is No Actual Circuit Conflict For
The Court To Resolve.

Petitioners liberally argue that the circuits’
treatment of particular cases under the IDEA
evidences the adoption of conflicting legal standards
for assessing the appropriateness of a private
placement and determining the extent to which the
federal judiciary should defer to the conclusions of
state education authorities. The circuit opinions
themselves do not substantiate this argument.
A.

The Cited Circuit Opinions Do Not
Demonstrate
A
Meaningful
Disagreement In Their Approach To
Evaluating The Appropriateness Of
A Private Placement.

The petition categorizes various circuit court
opinions in an effort to demonstrate that the Second
Circuit’s approach to reimbursement claims, and the
need to show that the private school offered the
student specially designed services, is at odds with the
approaches used in other circuits, which in the view of
petitioners, focus entirely or almost entirely on the
student’s educational progress. The divide, it is
argued, lies between the D.C., Fourth, Fifth, Sixth,

12
and Ninth Circuits on one side and the Second,
Eighth, and Tenth Circuits on the other. However,
the holdings in the circuit opinions cited in the
petitioners’ analysis rest on particular disparate facts
and do not fit neatly into the divisions that petitioners
have artificially constructed.
First of the circuit opinions cited by petitioners
is the opinion of the D.C. Circuit in Leggett v. D.C.,
793 F.3d 59 (D.C. Cir. 2015). Petitioners’ interest in
Leggett is self-evident. In Leggett, the court held that
the school district was required to reimburse the
parent for the placement of a student with a disability,
referred to as “K.E.”, at a private boarding school. In
reaching its holding, the D.C. Circuit announced its
intention to review the appropriateness of a private
placement using the standard announced in Rowley,
458 U.S. at 207, for evaluating an IEP offered by a
public school district under 20 U.S.C. § 1414(d)—
whether it is “‘reasonably calculated to enable the
child to receive educational benefits.’” Leggett, 793
F.3d at 70. The D.C. Circuit believed that this
approach was consistent with this Court’s opinion in
Rowley and “with the practice of our sister circuits,”
including that of the Second Circuit as articulated in
Frank G. v. Bd. of Educ., 459 F.3d 356 (2d Cir. 2006).
Id. at 70-71. Notably, in Frank G., the Second Circuit
explained that the same considerations generally
apply when assessing the appropriateness of a private
placement, with the central inquiry being whether the
placement offered specially designed instruction to
meet the student’s unique needs. See Frank G., 459
F.3d at 364-65.
Having first described a standard of review in
line with Rowley and the decisions of other circuits,

13
the D.C. Circuit then proceeded to decide the case
based on a narrow set of facts. The court determined
that the private placement offered a program
“reasonably calculated to provide [the student K.E.]
educational
benefit,”
including
individualized
tutoring and life-skills instruction consistent with her
psychologists’ recommendations as necessary for her
education. Leggett, 793 F.3d at 66, 71-72. Because
the holding in Leggett is compelled by its facts, it offers
little evidence of a division that petitioners believe
exists between the Second Circuit and the other
circuits.
The other cited circuit opinions similarly fail to
substantiate the alleged circuit split. Offered as
representative of the approach of the Fourth Circuit
to IDEA reimbursement cases, petitioners cite to
Sumter County Sch. Dist. 17 v. Heffernan, 642 F.3d
478 (4th Cir. 2011). Sumter County concerns a
severely autistic student whose parents removed him
from the public schools in favor of a home placement
in which the student received intensive applied
behavioral analysis 30 hours a week, id. at 482, “the
kind of therapy that the [school district] through its
IEPs had concluded was necessary to provide [the
student] with an appropriate education,” id. at 489.
Given the intensive therapeutic services that
the student in Sumter County needed and received,
there is no reason whatsoever to believe that the
Fourth Circuit, if it were to examine W.E.’s case,
would conclude that petitioners are entitled to
reimbursement for a unilateral private placement
that offered the student no specialized services,
especially when considered in light of the Fourth
Circuit’s statement that “[a] parental placement is

14
appropriate if the placement is ‘reasonably calculated
to enable the child to receive educational benefits[.]’”
Id. at 488 (citation omitted).
From the Fifth Circuit, petitioners cite to
Spring Branch Ind. Sch. Dist. v. O.W., 938 F.3d 695
(5th Cir. 2019). However, this Fifth Circuit opinion
includes almost no analysis regarding a standard for
determining the appropriateness of a private
placement. Id. at 712. Further, given the severe
behavioral issues that were exhibited by the student
in that case, the opinion has no relation to the present
matter concerning an IDEA-eligible student’s
attendance at a college preparatory school.
The two remaining cited opinions from the
Sixth and Ninth Circuits similarly lend little or no
support for the argument that there exists a circuit
split. In L.H. v. Hamilton County Dep’t of Educ., 900
F.3d 779 (6th Cir. 2018), the Sixth Circuit approved a
reimbursement claim for a parental placement at a
Montessori-method school that provided the student
with “an individualized lesson plan” and “a full-time
aid to help [him] with his work and keep him on task.”
Id. at 787. In reaching its holding, the Sixth Circuit
confirmed that “the private school must satisfy the
substantive IEP requirement” for providing specially
designed instruction, and cited to, among other
authority, the Second Circuit’s opinion in Frank G. as
support for that proposition. Id. at 791. The Sixth
Circuit further sought to adhere to a standard
announced in its previous opinion “that a unilateral
private placement does not satisfy the IDEA unless it,
‘at a minimum, provide[s] some element of special
education services in which the public school
placement was deficient’; for example, specific special-

15
education programs, speech or language therapy
courses, or pre-tutoring services.” Id. at 791 (quoting
Berger v. Medina City Sch. Dist., 348 F.3d 513, 523
(6th Cir. 2003)). Thus, the Sixth Circuit’s approach
aligns with the Second Circuit’s requirement for a
showing of specially designed instruction.
In S.L. v. Upland Unified Sch. Dist., 747 F.3d
1155 (9th Cir. 2014), the Ninth Circuit stated that the
standard for evaluating the appropriateness of a
private placement required a showing that “‘the
placement provides educational instruction specially
designed to meet the unique needs of a handicapped
child, supported by such services as are necessary to
permit the child to benefit from instruction.’” Id. at
1159 (citation omitted). As with the D.C., Fourth and
Sixth Circuit, the Ninth Circuit acknowledged the
Second Circuit’s standard as articulated in Frank G.
for assessing a private placement’s appropriateness.
Id. at 1159 (citing Frank G., 459 F.3d at 365). The
significance of S.L. for petitioners is that the Ninth
Circuit rejected the school district’s argument that the
private school had not provided the student “with a
sufficiently individualized educational benefit,” based
on the private school having provided the student
“with instructional materials and curriculum,
structure, support, and socialization.” S.L., 747 F.3d
at 1160.
Rather than supporting petitioners’ contention
that there exists a “profound[] conflict” among the
circuits regarding the standard for evaluating the
appropriateness of private parental placements, the
cited circuit court opinions universally articulate the
need for the private placement to provide the student
with specially designed instruction tailored to meet

16
his or her unique needs. Regardless of the variations
in language voiced in the circuit opinions to describe
the services that the private placement must offer the
student with a disability—“reasonably calculated to
enable the child to receive educational benefits” or “a
sufficiently individualized educational benefit”—none
of the cited circuit courts has embraced the idea of
reimbursement under the IDEA for a parental
placement that offers the student an education that
does not purposefully address the student’s disability.
Unable to truly demonstrate that the circuit
courts are divided over the legal standard to be
applied to IDEA reimbursement claims, petitioners’
argument devolves into a comparison of the outcomes
of the circuit court opinions, including, in particular,
the holding of the Second Circuit in this matter with
the holding of the D.C. Circuit providing the parent of
the student in Leggett with an award for the costs
associated with a placement at a private residential
school.
Juxtaposing two individual cases and
asserting that the results are incongruent hardly
demonstrates a meaningful circuit split that demands
the Court’s time or attention.
B.

The Need For Courts To Defer To
State Education Officials On Issues
Of Educational Policy Is Well
Established And Is Not The Subject
Of A Split Among The Circuits.

In addition to challenging the portion of the
Second Circuit’s analysis concerning the need for a
private placement to provide “specially designed”
services, petitioners contend that the Court should
also review the question of the amount of deference

17
owed by the federal courts to the findings of state
educational authorities on questions requiring
educational expertise, including the question of the
appropriateness of a private placement unilaterally
selected by parents. In the present case, the Second
Circuit’s opinion rested in large part on its prior
holdings that the federal courts “must give due weight
to the administrative proceedings, mindful that the
judiciary generally lacks the specialized knowledge
and experience necessary to resolve persistent and
difficult questions of educational policy.” Pet. App.
32a (internal quotation marks and citations omitted).
Insofar as the district court’s divergence from the
SRO on the issue of whether Northwood was an
appropriate placement for J.C.’s tenth grade year
resulted in a reversal by the Second Circuit,
petitioners’ interest lies in having the Court hold that
the judiciary owes little or no deference to the
administrative determinations of state education
officials.
This Court, however, has already—and
recently—affirmed the circumscribed role of the
courts in reviewing individualized placement
decisions under the IDEA.
The adequacy of a given IEP turns on the
unique circumstances of the child for
whom it was created. This absence of a
bright-line rule, however, should not be
mistaken for ‘an invitation to the courts
to substitute their own notions of sound
educational policy for those of the school
authorities which they review.’

18
At the same time, deference is based on
the application of expertise and the
exercise of judgment by school
authorities. The Act vests these officials
with responsibility for decisions of
critical importance to the life of a
disabled child. The nature of the IEP
process, from the initial consultation
through
state
administrative
proceedings, ensures that parents and
school representatives will fully air their
respective opinions on the degree of
progress a child’s IEP should pursue.
Endrew F. v. Douglas Cnty. Sch. Dist. RE-1, 137 S. Ct.
988, 1001 (2017) (quoting Rowley, 458 U.S. at 206,
208-209). While the question before the Court in
Endrew F. concerned the adequacy of the program
offered by the school district, and the Court did not
reach the question of the appropriateness of the
parental placement, the Court expressly recognized
the need for deference on the part of the judiciary, as
a general matter, on questions that benefit from
educational expertise.
Petitioners’ argument does not discuss the
concept of deference presented in Endrew F., but asks
the Court to “address[] what deference a court should
provide on the question of reimbursement” because of
what they contend are “diametrically opposed”
positions of the Second Circuit, to extend “substantial
deference” to the findings of the SRO, and the D.C.
and Ninth Circuits’ supposedly pure de novo standard
of review. The petition asserts that the positions of
the Tenth and Eleventh Circuits on the issue of
deference lie somewhere in the middle.

19
Opinions from the D.C. and Ninth Circuits do
not support the existence of a sharp division with the
Second Circuit on the issue of deference. In both
circuits, deference or “due weight” is afforded to the
finding of the administrative judicial officer on
matters involving questions of educational expertise,
as long as the finding is supported by the record and
is well-reasoned. See, e.g., Z.B. v. D.C., 888 F.3d 515,
523 (D.C. Cir. 2018) (“[W]e must give ‘due weight’ to
the hearing officer’s determinations, but we afford
‘less deference than is conventional in administrative
proceedings,’ especially when the decision is
insufficiently supported by fact or reasoning.”)
(citations omitted); Kerkam v. McKenzie, 862 F.2d
884, 887 (D.C. Cir. 1988) (“Deference to the hearing
officer makes sense in a proceeding under the Act for
the same reasons that it makes sense in the review of
any other agency action—agency expertise[.]”); C.B. v.
Garden Grove Unified Sch. Dist., 635 F.3d 1155, 1160
(9th Cir. 2011) (“In conducting our de novo review of
the ‘proper’ test [for evaluating a parental placement],
we give weight to the ALJ’s findings.”) (citation
omitted), cert. denied, 565 U.S. 977 (2011).
In the present matter, the Second Circuit
similarly noted the judiciary’s lack of “specialized
knowledge and experience necessary to resolve
persistent and difficult questions of educational
policy,” Pet. App. 32a (internal quotation marks and
citation omitted), but also made clear that “deference”
did not require the courts to rubber stamp
determinations that are unsupported by the record or
poorly reasoned.
Under the Second Circuit’s
approach, a reviewing court is required to “look to the
factors that normally determine whether any

20
particular judgment is persuasive, and must
ultimately defer to the SRO’s decision on matters
requiring educational expertise unless [the court]
concludes that the decision was inadequately
reasoned[.]” Pet. App. 33a (internal quotation marks
and citation omitted).
Contrary to the petition, courts in the Tenth
and Eleventh Circuits similarly adhere to the
requirement articulated in Rowley that reviewing
courts give due weight to administrative
determinations regarding the education of students
with disabilities.
[T]he court must give “due weight” to the
administrative
hearing
officer’s
determination: “The fact that § 1415[]
requires that the reviewing court ‘receive
the records of the [state] administrative
proceedings’ carries with it the implied
requirement that due weight shall be
given to these proceedings. As such,
“administrative
factfindings
are
considered to be prima facie correct, and
if a reviewing court fails to adhere to
them, it is obliged to explain why.”
Blount Cnty. Bd. of Educ. v. Bowens, 929 F. Supp. 2d
1199, 1201 (N.D. Ala. 2013) (quoting Rowley, 458 U.S.
at 206-207 & Loren F. v. Atlanta Ind. Sch. Sys., 349
F.3d 1309, 1314 n. 5 (11th Cir. 2003)), aff’d, 762 F.3d
1242 (11th Cir. 2014). See also Murray v. Montrose
Cnty. Sch. Dist. RE-1J, 51 F.3d 921, 927 (10th Cir.
1995), cert. denied, 516 U.S. 909 (1995).

21
In short, each of the circuits embraces the need
for reviewing courts to defer—or accord due weight—
to the administrative determinations of educational
officials, unless the determination is unsupported.
Even assuming that the deference shown to
administrative
determinations
varies
among
individual cases, which is not demonstrated in the
petition, this would not constitute a meaningful split
among the circuits as to the applicable legal standard
for how courts review administrative determinations
regarding the appropriateness of education of children
with disabilities.
II.

The Second Circuit’s Decision Below Is
Correct.

The Court should not intervene in this case
because the decision below is plainly correct. The
IDEA does not entitle parents to reimbursement for a
private placement that does not provide the student
with the specially designed services needed to address
the particular disability that brought the student
within the ambit of the IDEA in the first instance.
First among the purposes of the IDEA is “to
ensure that all children with disabilities have
available to them a free appropriate public education
that emphasizes special education and related
services designed to meet their unique needs and
prepare them for further education, employment, and
independent living.” 20 U.S.C. § 1400(d)(1)(A). The
emphasis on special education and related services
tied to the student’s unique needs applies whether the
student is receiving a publicly or privately-provided
education.

22
To the extent consistent with number
and location of children with disabilities
in the State who are enrolled by their
parents in private elementary schools
and secondary schools in the school
district served by a local educational
agency, provision is made for the
participation of those children in the
program assisted or carried out under
this part by providing for such children
special education and related services[.]
Id. § 1412(a)(10)(A)(i). As the Court previously ruled,
parents “are entitled to reimbursement only if a
federal court concludes both that the public placement
violated IDEA and that the private school placement
was proper under the Act.” Florence Cnty. Sch. Dist.
Four v. Carter, 510 U.S. 7, 15 (1993) (emphasis in
original).
While the meaning of “proper” is a flexible
concept, Carter does not support the proposition
advanced by petitioners that reimbursement is
available under the IDEA for private placements that
do not provide the student with specially designed
instruction and supportive services. Notably, the
student addressed by the Carter opinion had been
“classified as learning disabled,” and had been placed
by her parents at a private school “specializing in
educating children with disabilities.” Id. at 10. The
private school provided “an education otherwise
proper under the IDEA,” except that it was not “under
public supervision and direction” and did not provide
the student with “an IEP . . . designed by a
representative of the local educational agency.” Id. at
12-13 (internal quotation marks and citation omitted).

23
The SRO did not find W.E.’s placement at Northwood
unworthy of reimbursement because it failed to
adhere to obligations placed on the public schools
under the IDEA, but because it had not provided W.E.
with the specialized program that students with
disabilities are entitled to under the IDEA. Pet. App.
38a-40a, 47a.
Nor can petitioners rely on 20 U.S.C. §
1412(a)(10)(C) as a basis for obtaining reimbursement
for the costs of a private placement that did not
provide the student with required services. Section
1412(a)(10)(C)(iii) lists criteria for the reduction or
denial of the costs of reimbursement including, e.g., if
“the parents did not inform the IEP Team that they
were rejecting the placement proposed by the public
agency” or “the parents did not give written notice to
the public agency” within 10 business days of the
removal of the student from the public school. The
Court has already examined § 1412(a)(10)(C) and
found that its clauses “are . . . best read as elucidative
rather than exhaustive.” Forest Grove Sch. Dist. v.
T.A., 557 U.S. 230, 242 (2009). The Court expressly
reaffirmed its holdings in Carter and in Sch. Comm.
of Burlington v. Dept. of Educ. of Mass., 471 U.S. 359
(1985), that, in order to merit reimbursement, the
private placement chosen by parents must be
“‘appropriate’ in light of the purpose of the Act. As
already noted, this is principally to provide
handicapped children with ‘a free appropriate public
education which emphasizes special education and
related services designed to meet their unique needs.’”
Burlington, 471 U.S. at 369. The requirement that
the “private-school placement is appropriate” “is
essential to ensuring that reimbursement awards are

24
granted only when such relief furthers the purpose of
the Act.” Forest Grove Sch. Dist., 557 U.S. at 242 n. 9.
Further, the Second Circuit’s deference to the
well reasoned and factually supported findings of the
SRO on complex matters that require the application
of educational expertise, is both reasonable and
legally sound. The Court has consistently cautioned
the judiciary, in both Rowley and Endrew F., not to
“substitute their own notions of sound educational
policy for those of the school authorities which they
review.” The Second Circuit’s standard of review and
its deference to the SRO on questions that require
educational expertise—such as the appropriateness of
a private placement for a student with a disability—
except if the SRO’s determination is unsupported by
the hearing record, is entirely consistent with the
Court’s guidance. Because the SRO’s analysis of the
program of instruction provided to W.E. by Northwood
was based on the hearing record, and was well
reasoned, the Second Circuit’s finding that deference
was owed to the SRO was correct. Pet. App. 45a-46a.
Petitioners’ reliance on Salve Regina College v.
Russell, 499 U.S. 225 (1991), for the proposition that
the reviewing court should afford no deference to the
findings of education officials, is misplaced. The issue
in Salve Regina College concerned the nature of a
federal appellate court de novo review of “a district
court’s determination of state law.” Id. at 231. The
Court’s concerns with the judiciary blundering into
the complex realm of educational policy—for which it
lacks independent expertise—is simply not present in
the discussion of de novo review in the opinion in
Salve Regina College.

25
CONCLUSION
For the foregoing reasons, this Court should
deny the petition for certiorari.

Respectfully submitted,
DANIEL PETIGROW
Counsel of Record
DAVID H. STRONG
STEVEN L. BANKS
THOMAS, DROHAN,
WAXMAN, PETIGROW
& MAYLE, LLP
2517 Route 52
Hopewell Junction, NY
12533
(845) 592-7000
dpetigrow@tdwpm.com
Counsel for Respondent

